APPENDIX A

United States v. Montalvo
United States Court of Appeals for the Fifth Circuit
December 7, 2020, Filed
No. 19-11306
Reporter
836 Fed. Appx. 300 *; 2020 U.S. App. LEXIS 38055 **

UNITED STATES OF AMERICA, Plaintiff—Appellee,
versus BRYAN MONTALVO, Defendant—Appellant.

Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.

Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 4:19-CR160-1.

Outcome
Judgment affirmed.

Counsel: For United States of America, Plaintiff - Appellee:
Ryan Patrick Niedermair, Leigha Amy Simonton, Assistant
U.S. Attorney, U.S. Attorney's Office, Northern District of
Texas, Dallas, TX.
For Bryan Montalvo, Defendant - Appellant: Brandon Elliott
Beck, Federal Public Defender's Office, Northern District of
Texas, Lubbock, TX; Taylor Wills Edwards Brown, Federal
Public Defender's Office, Northern District of Texas, Fort
Worth, TX.

Disposition: AFFIRMED.
Judges: Before DAVIS, STEWART, and OLDHAM, Circuit
Judges.

Case Summary
Opinion
Overview
HOLDINGS: [1]-The best reading of the tentative order was
that the district court was doing exactly what it was supposed
to: using the proffer evidence to determine whether a
downward departure from the guidelines was warranted
pursuant to a government motion under U.S. Sentencing
Guidelines Manual § 5K1.1, U.S. Sentencing Guidelines
Manual § 1B1.8(b)(5); [2]-Because the district court only
considered defendant's proffer evidence for purposes of the
Government's § 5K1.1 motion, the court did not give weight
to an improper sentencing factor.

[*301] PER CURIAM:*
Bryan Montalvo pleaded guilty to drug charges. The district
court denied a motion for downward departure and sentenced
Montalvo to the bottom of his Guideline range. Because that
sentence was reasonable, we affirm.

* Pursuant

to 5TH CIRCUIT RULE 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

Brandon Beck

Page 2 of 3
836 Fed. Appx. 300, *301; 2020 U.S. App. LEXIS 38055, **1
I.
Montalvo pleaded guilty to possession with intent to distribute
50 grams or more of methamphetamine. The drug weight, his
extensive criminal history, two enhancements, and one
reduction resulted in an advisory Guideline range of 292 to
365 months of imprisonment. Hoping to reduce his sentence,
Montalvo agreed to provide inside information about his coconspirators to the Government. [**2] He participated in four
"proffer interviews" with federal agents to that end. In light of
Montalvo's assistance, the Government filed a motion to
reduce his sentence under U.S.S.G. § 5K1.1.
But the proffer interviews did not just reveal information
about Montalvo's co-conspirators. They also revealed that
Montalvo possessed more than five times the amount of meth
initially included in his Presentence Report. So a probation
officer filed an addendum to Montalvo's PSR. The addendum
informed the court that Montalvo's Guideline range would
have been "360 months to Life imprisonment" had he been
held responsible for all the meth he possessed.
The district court addressed the Government's § 5K1.1 motion
and the PSR addendum at sentencing. It agreed that Montalvo
had "provided substantial assistance to the government." But
given Montalvo's criminal history and the fact that his "actual
criminal conduct . . . was much more serious than [he] was
charged with," the court declined to impose a sentence "below
the bottom of the advisory guideline range." It sentenced
Montalvo to 292 months in prison after finding that length
would "adequately and appropriately address all the
sentencing factors." Montalvo timely appealed. [**3]
II.
Montalvo challenges his sentence as substantively
unreasonable. He preserved his [*302] challenge by
requesting a sentence below the advisory sentencing range.
See Holguin-Hernandez v. United States, 140 S. Ct. 762, 766,
206 L. Ed. 2d 95 (2020). So we review for abuse of discretion.
See Gall v. United States, 552 U.S. 38, 51, 128 S. Ct. 586, 169
L. Ed. 2d 445 (2007); United States v. Ochoa, 977 F.3d 354,
356 (5th Cir. 2020). Within-Guidelines sentences like
Montalvo's "are presumptively reasonable and are accorded
great deference on review." Ochoa, 977 F.3d at 357
(quotation omitted). This presumption "is rebutted only upon
a showing that the sentence does not account for a factor that
should receive significant weight, it gives significant weight
to an irrelevant or improper factor, or it represents a clear
error of judgment in balancing sentencing factors." United
States v. Cooks, 589 F.3d 173, 186 (5th Cir. 2009).
Montalvo's argument centers on the second of those avenues
for relief. Specifically, he contends the district court

improperly based its sentencing determination on details
about Montalvo's drug possession that he revealed during his
proffer interviews. Montalvo relies on § 1B1.8 of the
Sentencing Guidelines, which provides:
Where a defendant agrees to cooperate with the
government by providing information concerning
unlawful activities of others, and as part of that
cooperation agreement the government agrees that selfincriminating information provided pursuant to the
agreement will not be used against [**4] the defendant,
then such information shall not be used in determining
the applicable guideline range, except to the extent
provided in the agreement.
U.S.S.G. § 1B1.8(a).
The record shows that Montalvo did in fact "agree[] to
cooperate with the government" by providing helpful
information about his co-conspirators. And part of his written
cooperation agreement included the Government's promise
that "no self-incriminating statements made by defendant
during the proffer interview(s) will be used against him in any
criminal trial or sentencing proceeding." So far so good for
Montalvo.
But that is not the end of the matter. Section 1B1.8 also states
that "[t]he provisions of subsection (a) shall not be applied to
restrict the use of information . . . in determining whether, or
to what extent, a downward departure from the guidelines is
warranted pursuant to a government motion under § 5K1.1."
Id. § 1B1.8(b)(5). And Montalvo "expressly acknowledge[d]"
in his proffer agreement "that any self-incriminating
information he might disclose pursuant to th[e] agreement
may be used for th[at] purpose[]."
Thus, the substantive reasonableness (or unreasonableness) of
Montalvo's sentence turns on the way the district court used
his inculpatory proffer evidence. If the [**5] court used that
evidence to "determin[e] [Montalvo's] applicable guideline
range," then it improperly applied § 1B1.8(a). But if the court
used the evidence to "determin[e] whether . . . a downward
departure . . . [was] warranted . . . under § 5K1.1," then it
properly applied § 1B1.8(b).
The sentencing transcript clearly shows the district court did
the latter. After hearing testimony about Montalvo's
cooperation, the court said this:
Well, you have provided substantial assistance to the
government. Unfortunately, your criminal history is such
and the actual criminal conduct that resulted in us being
here today was much more serious than you were
charged with[.] . . . [H]ad you been . . . charged with

Brandon Beck

Page 3 of 3
836 Fed. Appx. 300, *302; 2020 U.S. App. LEXIS 38055, **5
your actual criminal conduct as it was finally disclosed
pursuant to interviews that were made as a result of your
agreement with the government[,] [y]our [*303]
guideline range would have been 360 months to life
imprisonment. Of course, I can't take that into account in
determining what sentence to impose except to the extent
I can take it into account in determining the ruling I
should make on the motion by the government for a
sentence below the bottom of the advisory guideline
range.
The italicized portion is an unmistakable [**6] reference to
the Government's § 5K1.1 motion. And it leaves no doubt that
the district court acted properly under § 1B1.8(b).
Montalvo nevertheless claims that a "less than clear" tentative
order issued by the district court prior to the sentencing
hearing "looms as a cloud over the sentence." In his view, the
non-binding and superseded order suggests the district court
intended to use the proffer evidence to "form a hypothetical,
higher advisory sentencing range." Montalvo asserts it was
only after the district court created that impermissible range
that it considered whether to depart downward in light of
Montalvo's assistance to the Government.
We reject that argument for two reasons. First, the tentative
order does not say what Montalvo thinks it says. The order
began with the district court's preliminary assessment that "all
objections made by defendant to the presentence report are
without merit." Then it identified two factors the court
planned to consider "in determining what, if any, reduction in
defendant's sentence of imprisonment should be granted based
on whatever assistance defendant might have provided to the
government." One of those factors was the PSR addendum's
observation that if [**7] Montalvo's "true offense conduct
had been taken into account" as revealed in his proffer
interviews, "his advisory guideline imprisonment range would
have been 360 months to life imprisonment."
Montalvo interprets the order's reference to a "reduction in
[his] sentence" to mean that the district court was thinking
about more than just the Government's § 5K1.1 departure
motion. But the only reason the district court gave for
contemplating a reduction was "whatever assistance
[Montalvo] might have provided to the government." And the
only reason that assistance could have mattered was because §
5K1.1 made it relevant. See U.S.S.G. § 5K1.1 (authorizing
district court to "depart from the guidelines" upon a "motion
of the government stating that the defendant has provided
substantial assistance").1 So the best reading of the tentative

1 18

U.S.C. § 3553(e) also authorizes downward departures "[u]pon

order is that the district court was doing exactly what it was
supposed to: using the proffer evidence to "determin[e]
whether . . . a downward departure from the guidelines [was]
warranted pursuant to a government motion under § 5K1.1."
Id. § 1B1.8(b)(5).
Second, even if the tentative order could be read to suggest
that the district court initially considered using the proffer
evidence to amend Montalvo's Guideline [**8] range, the
court's subsequent comments at the sentencing hearing show
it changed its mind. Paraphrasing § 1B1.8, the court said it
could not "take [the proffer evidence] into account . . . except
. . . in determining the ruling [it] should make on the [§
5K1.1] motion." Montalvo himself concedes the district
court's sentencing statement "does not square with" his
interpretation of the district court's prior order. And the
sentencing statement is all that matters. See Cooks, 589 F.3d
at 186 (holding [*304] a defendant claiming substantive
unreasonableness must show "that the sentence . . . gives
significant weight to an irrelevant or improper factor"
(emphasis added)).
Because the district court only considered Montalvo's proffer
evidence for purposes of the Government's § 5K1.1 motion,
the court did not give weight to an improper sentencing
factor. Montalvo brings no additional challenge to the
reasonableness of his sentence.2
AFFIRMED.

End of Document

motion of the Government . . . so as to reflect a defendant's
substantial assistance in the investigation or prosecution of another
person who has committed an offense." But nothing in the record
indicates the Government filed a § 3553(e) motion in this case.
2 Montalvo

separately challenges the district court's discretionary
decision to deny the Government's § 5K1.1 departure motion. But he
concedes "this argument is foreclosed" by circuit precedent and
raises it only "to preserve it for further review." See United States v.
Tuma, 738 F.3d 681, 691 (5th Cir. 2013) ("We lack jurisdiction to
review the denial of a downward departure unless the district court's
denial resulted from a mistaken belief that the Guidelines do not give
it authority to depart."); see also 18 U.S.C. § 3742(a)(3) ("A
defendant may file a notice of appeal in the district court for review
of an otherwise final sentence if the sentence . . . is greater than the
sentence specified in the applicable guideline range . . . ." (emphasis
added)).

Brandon Beck

APPENDIX B

Case 4:19-cr-00160-A Document 40 Filed 11/22/19

Page 1 of 5 PageID 90

19-11306.41

Case 4:19-cr-00160-A Document 40 Filed 11/22/19

Page 2 of 5 PageID 91

19-11306.42

Case 4:19-cr-00160-A Document 40 Filed 11/22/19

Page 3 of 5 PageID 92

19-11306.43

Case 4:19-cr-00160-A Document 40 Filed 11/22/19

Page 4 of 5 PageID 93

19-11306.44

Case 4:19-cr-00160-A Document 40 Filed 11/22/19

Page 5 of 5 PageID 94

19-11306.45

